                         UNITED STATES DEPARTMENT OF EDUCATION
                                        OFFICE OF THE INSPECTOR GENERAL




March 22, 2004


INSPECTION MEMORANDUM

To:               Phil Maestri
                  Director, Management Improvement Team
                  Office of Deputy Secretary

From:             Cathy H. Lewis
                  Assistant Inspector General
                  Evaluation, Inspection and Management Services

Subject:          Review of Blueprint for Management Excellence item number 172
                  (ED/OIG I13E0008)

This memorandum provides the results of our inspection of one Action Plan item
from the Department of Education’s (Department’s) Blueprint for Management
Excellence. We are examining several Action Plan items related to Human
Capital. Our objective is two-fold: 1) was the item completed as described; and,
2) as completed, does the action taken help the Department towards its stated
Blueprint objective. In this report, we examined Action Item Number 172
concerning the annual review of position descriptions by rating officials.

Background:

Each Department employee is assigned to a position description (PD). Given the
Department’s revised performance evaluation system and its emphasis on
accountability, it is important that position descriptions provide an accurate
statement of the employee’s job, including all current responsibilities.
With this in mind, the MIT developed an Action Item to require a yearly review of
position descriptions. Specifically, Action Item Number 172 requires each
Assistant Secretary to:

“Establish a process to ensure that rating officials annually review PDs of
their staff to ensure the PD accurately covers all of the employees duties
and responsibilities.”

The comments field on this item states, “Completed 6/18/02. This item was
addressed through the One-ED report.”

                             400 MARYLAND AVE., SW., WASHINGTON, DC 20202-1510
                                                www.ed.gov

      Our mission is to ensure equal access to education and to promote educational excellence throughout the Nation.
Objective 1: Was the action item completed as described?

The One-ED Report does not establish a process, or direct Assistant Secretaries
to establish a process, to monitor position descriptions on an annual basis.

The annual position description review is a line management responsibility, to be
carried out by the rating officials in each principal office. The designated action
owner is each Assistant Secretary. According to the MIT, this Blueprint item was
addressed through the One-ED Report. The One-ED report makes no mention
of this requirement. Although this is not reflected in the MIT report on this action
item, it has been suggested that the item was closed because the One-ED
Strategic Investment Process (SIP) includes a review of position descriptions.
We found no evidence that such a review was done as part of Phase I of the
One-ED process to ensure that employee’s duties and responsibilities were
accurately reflected in their PD. The MIT acknowledged that position descriptions
were not reviewed as a part of the Strategic Investment Process, and updates
that may result from future implementation of One-ED reengineer solutions will
not result in annual updates of every employee’s position description.
Furthermore, HRS stated that there is no policy that directly requires supervisors
to update position descriptions.

As part of our inspection activities, we surveyed the Department’s executive
officers to determine if they were aware of this requirement. None of the
executive officers were aware of any current initiative to ensure that an annual
review of employee position descriptions took place.

Objective 2: Did the actions completed meet the objective “To improve the
strategic management of the Department’s human capital?”

This action item was not completed.

Recommendations:

The EMT should either designate this item as “closed” if it feels it is not required
any longer or, if the EMT believes this item is still necessary, the Action Item
Number 172 should be re-designated as “open” and a process identified to
ensure the action is initiated and completed on an annual basis.

Department Response:

The MIT concurs that this action item was not completed as intended. As a
result, the MIT will record Action Item Number 172 as “closed” rather than
“completed” and will note the change in the comments section of the Blueprint
action item.



                                          2
We have not modified our recommendation based on the Department’s
response.

We appreciate the cooperation given to us during the inspection.




                                       3
                                      March 10, 2004



To:         Cathy H. Lewis
            Assistant Inspector General
            Evaluation, Inspection and Management Services

From:       Phillip Maestri, Director
            Management Improvement Team

Subject:    Draft Inspection Memorandum (1/6/04)
            Review of MIT Action Item Number 172 (ED/OIG I13E0007)
            “Process for rating officials (to) annually review position descriptions”

Thank you for the opportunity to review and comment on a draft version of this
inspection memorandum.

Comments on Background and Findings

In response to your draft memo, the Management Improvement Team (MIT) reviewed
the activities associated with the review of position descriptions. As OIG found, the MIT
recorded blueprint action item #172 as “completed” based on the completion of the One-
ED report. The report contained a plan for a Strategic Investment Process that, through
re-engineering business processes, would change the work individuals perform. With the
implementation of re-engineered work processes, any changes in duties will need to be
reflected in updated position descriptions. However, the MIT acknowledges that the
implementation of One-ED has not always been accomplished as originally envisioned
and position descriptions were not reviewed during the Strategic Investment Process.
Furthermore, updates to position descriptions that may result from future implementation
of One-ED reengineered solutions will not result in annual updates of every employee’s
position description because One-ED reviews occur periodically and affect only a
fraction of employees.

In response to the OIG findings, the MIT asked the Human Resource Service (HRS) to
advise us on the current situation. HRS advises that there is no policy that directly
requires supervisors to update position descriptions. However, managers are responsible
for ensuring the accuracy of position descriptions. This requirement is referenced in
Personnel Manual Instruction 511-1 (Employee Position Classification Appeals), which
provides:

        •   Assignment of duties and responsibilities as documented in official position
            descriptions is a management responsibility. (Paragraph IV)




                                              4
       •   Ultimately, the supervisor has the final authority to determine the duties and
           responsibilities to be reflected in the position description, and to explain the
           basis for the classification of the position to the employee. (Paragraph V-B)

5 CFR 511.607(a)(1) states:

       •   When the accuracy of the official position description is questioned by the
           employee, the employee will be directed to review this matter with his or her
           supervisor.

Furthermore, HRS advises that, in the staff’s judgment, a yearly review of position
descriptions is not necessary for three reasons. First, Principal Offices reorganize
frequently. In the year 2003, there were 25 reorganizations. A key step in the
reorganization process requires management to review position descriptions of
employees affected by the reorganization. If employees’ position descriptions do not
accurately describe the duties and responsibilities to be performed in the new
organization, management must submit new position descriptions. Second, supervisors
assign the vast majority of employees to standard, generic position descriptions. These
descriptions are written in broad terms and cover the major, grade-controlling aspects of
positions in the occupational series. Third, the EDPAS performance appraisal system
requires managers to develop standards with employees. If the position description is
inaccurate, that fact should be apparent when the manager and employee develop the
standards for assessing the employee’s performance.

Response to recommendations

The MIT concurs that this action item was not completed as intended. As a result, the MIT will
record action item #172 as “closed” rather than “completed” and will note the change in the
comments section of the Blueprint action item.




                                             5
